                                              NATIONALSCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: 109080050                                                                   Page 1 of 1


        This casestemmed from a Proactive Review 1 of significant users ofIndependent
        Research/Development (lR/D) travel funds during the 2007 fiscal year. The subject2 was
        identified as one of these users. Upon review of the subject's IRiD funded travel during FY
        2007,2008, and 2009, there were no trips or charged expenses that violated any Federal
        regulations or NSF policies pertaining to IR/D travel.

        Therefore, this case is closed.




NSF OIG Form 2 (11/02)
